  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL




     APPROPRIATIONS FUNDING
FOR NATIONAL INSTITUTE OF ALLERGY
AND INFECTIOUS DISEASES CONTRACT
          N01-AI-30068
   WITH PPD DEVELOPMENT, LP


    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                    Daniel R. Levinson
                                                     Inspector General

                                                      September 2012
                                                       A-03-10-03116
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The National Institute of Allergy and Infectious Diseases (NIAID) is 1 of 27 institutes and
centers of the National Institutes of Health (NIH), an agency of the Department of Health
and Human Services (HHS). The NIH Office of the Director sets policy and plans, manages, and
coordinates NIH-wide programs and activities. Like all Federal agencies, NIAID is required to
comply with appropriations statutes when acquiring supplies and services with appropriated
funds.

An agency may obligate appropriations for goods and services when (1) the purpose of the
obligation or expenditure is authorized, (2) the obligation occurs within the time limits for which
the appropriation is available, and (3) the obligation and expenditure are within the amounts
provided by Congress.

Federal statutes limit the purpose for which an agency may use appropriations to “the objects for
which the appropriations were made except as otherwise provided by law” (31 U.S.C.
§ 1301(a)). A fiscal year appropriation may be obligated only to meet a legitimate, or bona fide,
need arising in, or in some cases arising prior to but continuing to exist in, the appropriation’s
period of availability (31 U.S.C. § 1502(a)). Congress determines the amount of funding
available to an agency for the purchase of goods and services by enacting appropriations. The
Antideficiency Act prohibits an agency from obligating or expending those funds in advance of
or in excess of an appropriation unless specifically authorized by law (31 U.S.C. § 1341(a)(1)).

The Comptroller General has held that “the question of whether to charge the appropriation
current on the date the contract is made, or to charge funds current at the time the services are
rendered, depends on whether the services are ‘severable’ or ‘entire’ [nonseverable].” When
services are continuing and recurring, they are severable, and the agency must fund the contract
with fiscal year appropriations from the year in which services are provided, unless otherwise
authorized by statute. When services are for a single outcome or effort, they are nonseverable
and therefore chargeable to the fiscal year in which the contract is awarded, even though
performance may extend into subsequent fiscal years.

On September 30, 2003, NIAID awarded contract N01-AI-30068 (the Contract), totaling
$48.4 million, to PPD Development, LP, in Wilmington, North Carolina. NIAID estimated the
funds needed for the 5-year Contract as follows: $9.9 million of fiscal year 2003 funds for
program year 1, $9.3 million of fiscal year 2004 funds for program year 2, $9.5 million of fiscal
year 2005 funds for program year 3, $9.8 million of fiscal year 2006 funds for program year 4,
and $10.0 million of fiscal year 2007 funds for program year 5. (Annual funding amounts do not
total $48.4 million because of rounding.) On July 30, 2007, NIAID modified the Contract to
increase funding for program years 4 and 5 and extend the period of performance to 7 years at an
additional cost of $49.7 million. NIAID estimated the funds needed as follows: $4.4 million for
program year 4, $15.3 million for program year 5, $15.0 million for program year 6, and
$15.0 million for program year 7. The Contract requires the contractor to provide clinical trial
management support services to the Division of Microbiology and Infectious Diseases.
Although the Contract statement of work may contain some nonseverable elements, we


                                                 i
determined that the Contract is a severable service contract because it calls for continuing,
recurring tasks and does not provide for a single outcome at the Contract conclusion.

From November 2008 through February 2009, an HHS internal review group called the “Tiger
Team” assessed 176 HHS contracts, including 21 NIH contracts. The Contract was 1 of the
21 NIH contracts assessed. For 17 of the 21 contracts, the Tiger Team identified instances in
which contract funding was not consistent with the current HHS Acquisition Regulation or
appropriations law. The Tiger Team report did not identify its concerns or quantify funding
errors by contract.

OBJECTIVE

Our objective was to determine whether NIAID funded the Contract in compliance with the
purpose, time, and amount requirements specified in appropriations statutes.

SUMMARY OF FINDINGS

NIAID funded the Contract in compliance with the purpose requirements of the appropriations
statutes. However, NIAID did not comply with the time and the amount requirements specified
in the statutes. NIAID violated both the bona fide needs rule and the Antideficiency Act.

NIAID violated the bona fide needs rule when it recorded expenditures against the wrong fiscal
years. Although NIAID properly obligated the Contract estimate for program year 1, the
obligation exceeded the actual expenditures by $7.3 million. NIAID failed to deobligate the
unneeded fiscal year 2003 funds remaining from program year 1. Instead, NIAID
inappropriately used the remaining fiscal year 2003 funds for program year 2 expenditures.
Subsequently, NIAID recorded expenditures for each program year against funds obligated for
one or more previous program years. NIAID may not use funds remaining from any program
year for costs incurred in subsequent program years and should record expenditures for each
program year against the appropriate fiscal year appropriations. Because fiscal year 2003
appropriations are canceled, the $7.3 million must be deobligated and returned to the Treasury.

Because it recorded expenditures on a first-in-first-out basis against inappropriate fiscal year
funds, NIAID failed to identify and properly obligate funds for its bona fide need in succeeding
programs years. As a result, NIAID violated the bona fide needs rule for program years 2 and 5,
by obligating a total of $31.0 million that exceeded the bona fide needs: $12.8 million of fiscal
year 2004 funds for program year 2 and $18.2 million of fiscal year 2007 funds for program year
5. Because fiscal year 2004 appropriations are canceled, the $12.8 million must be deobligated
and returned to the Treasury.

NIAID violated the Antideficiency Act by obligating funds in advance of an appropriation.
NIAID may also have violated the Antideficiency Act by obligating significantly less of
appropriate fiscal year funds in program years 3, 4, and 6 than required by either the Contract
estimate or the actual expenditures incurred.

NIAID must resolve these bona fide needs rule violations and address the potential
Antideficiency Act violations by deobligating $12.8 million of fiscal year 2004 funds and
$18.2 million of fiscal year 2007 funds. Further, NIAID must obligate sufficient funds to cover


                                                 ii
incurred expenditures as follows: $15.9 million of fiscal year 2005 funds for program year 3,
$4.3 million of fiscal year 2006 funds for program year 4, and $10.3 million of fiscal year 2008
funds for program year 6. Fiscal year 2005 and 2006 funds are no longer available; however,
NIAID may be able to fund the deficiencies for program years 3 and 4 by using current fiscal
year appropriations provided the conditions of 31 U.S.C §§ 1553 and 1554 are met. If NIAID
does not have sufficient current fiscal year appropriations or the amount exceeds the lesser of
1 percent of the current appropriation or the unexpended balance of the closed appropriations, it
will violate the Antideficiency Act. NIAID may still be able to obligate sufficient fiscal year
2008 funds for program year 6. However, if NIAID does not have adequate fiscal year funds
available, it will violate the Antideficiency Act for that year as well.

RECOMMENDATIONS

Our recommendations to address NIAID’s funding violations and other financial management
issues are presented in the body of the report.

NATIONAL INSTITUTES OF HEALTH COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, NIH concurred with the findings and agreed that the
Contract is severable and should have been funded with the appropriation that was current when
the services were performed. NIH said that HHS reported the Antideficiency Act violation as
required by 31 U.S.C. § 1351.

NIH stated that, effective May 1, 2010, the Contract was modified to ensure that it was funded
appropriately by recording expenditures against fiscal year 2010. NIH did not concur with our
recommendations to correct the improper funding for the first 6 program years of the Contract.
NIH stated that the Contract had expired and was being closed. NIH further stated that, in
accordance with the HHS corrective action plan, “payment for contract performance conducted
before May 1, 2010, remain recorded against appropriations initially charged.” Until NIH makes
these adjustments, HHS cannot report the appropriate amount of the Antideficiency Act
violation. Therefore, we continue to recommend that NIH record the correct Contract
obligations and expenditures against the appropriate fiscal year funds.

NIH’s comments are included in their entirety as Appendix B.




                                                iii
                                                  TABLE OF CONTENTS

                                                                                                                                       Page

INTRODUCTION....................................................................................................................... 1

          BACKGROUND ..............................................................................................................1
              Federal Appropriations Statutes ............................................................................1
              Agency Funding Flexibilities................................................................................2
              National Institute of Allergy and Infectious Diseases Contract Award ................3
              Departmental Review of National Institutes of Health Contracts ........................ 3

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................ 4
               Objective ...............................................................................................................4
               Scope ..................................................................................................................... 4
               Methodology .........................................................................................................4

FINDINGS AND RECOMMENDATIONS .............................................................................5

          FUNDING VIOLATIONS ............................................................................................... 5
               Bona Fide Needs Rule Violations .........................................................................5
               Antideficiency Act Violations ..............................................................................8

          CAUSES OF FUNDING VIOLATIONS .......................................................................10

          RECOMMENDATIONS ................................................................................................ 11

          NATIONAL INSTITUTES OF HEALTH COMMENTS AND
           OFFICE OF INSPECTOR GENERAL RESPONSE .................................................12

APPENDIXES

          A: TOTAL FISCAL YEAR OBLIGATIONS AND EXPENDITURES
              INCURRED AND RECORDED FOR CONTRACT N01-AI-30068
              FOR EACH PROGRAM YEAR

          B: NATIONAL INSTITUTES OF HEALTH COMMENTS




                                                                     iv
                                              INTRODUCTION

BACKGROUND

The National Institute of Allergy and Infectious Diseases (NIAID) is 1 of 27 institutes and
centers of the National Institutes of Health (NIH), an agency of the Department of Health
and Human Services (HHS). The NIH Office of the Director sets policy and plans, manages, and
coordinates NIH-wide programs and activities. Like all Federal agencies, NIAID is required to
comply with appropriations statutes when acquiring supplies and services with appropriated
funds.

Federal Appropriations Statutes

An agency may obligate appropriations for goods and services when (1) the purpose of the
obligation or expenditure is authorized, (2) the obligation occurs within the time limits for which
the appropriation is available, and (3) the obligation and expenditure are within the amounts
provided by Congress.

Federal statutes limit the purpose for which an agency may use appropriations to “the objects for
which the appropriations were made except as otherwise provided by law” (31 U.S.C.
§ 1301(a)). A fiscal year appropriation may be obligated only to meet a legitimate, or bona fide,
need arising in, or in some cases arising prior to but continuing to exist in, the appropriation’s
period of availability (31 U.S.C. § 1502(a)). Unless otherwise specified in the appropriation, the
period of availability for most funds is the fiscal year for which the appropriation is made.

The Comptroller General has held that “the question of whether to charge the appropriation
current on the date the contract is made, or to charge funds current at the time the services are
rendered, depends on whether the services are ‘severable’ or ‘entire’ [nonseverable].”1 When
services are continuing and recurring, they are severable, and the agency must fund the contract
with fiscal year appropriations from the year in which services are provided, unless otherwise
authorized by statute.2 When services are for a single outcome or effort, they are nonseverable
and therefore chargeable to the fiscal year in which the contract is awarded, even though
performance may extend into subsequent fiscal years.

Congress determines the amount of funding available to an agency by enacting appropriations to
cover programs, projects, purchases, and services needed by the agency during the period for
which the funds are made available. The Antideficiency Act prohibits an agency from obligating
or expending funds in advance of or in excess of an appropriation unless specifically authorized
by law (31 U.S.C. § 1341(a)(1)). The Antideficiency Act requires agencies to report violations
to the President and to Congress, with a copy to the Comptroller General (31 U.S.C. § 1351).
Office of Management and Budget (OMB) Circular A-11, Preparation, Submission and
Execution of the Budget, part 4, § 145, prescribes the methodology for this reporting.


1
    As cited in GAO-04-261SP, Appropriations Law, Vol. I, p. 5-23.
2
 The Federal Acquisition Streamlining Act of 1994 (FASA), P.L. No. 103-355, provides certain exceptions to the
bona fide needs rule.


                                                         1
Agency Funding Flexibilities

Federal Acquisition Streamlining Act of 1994

Statutory authority provided by the FASA allows agencies, including HHS, some flexibility in
the use of fiscal year appropriations when funding severable services contracts. However, the
FASA also establishes certain requirements relating to these funding flexibilities. Pursuant to
FASA §§ 1072 and 1073 (codified at 41 U.S.C. §§ 254c and 253l3), agencies may use fiscal year
appropriations to purchase severable goods and services through special contracting methods.

Implementing these provisions of the FASA, the Federal Acquisition Regulation (FAR), parts
32.703-3 and 37.106, states:

           [Agencies] may enter into a contract, exercise an option, or place an order under a
           contract for severable services for a period that begins in one fiscal year and ends
           in the next fiscal year if the period of the contract awarded, option exercised, or
           order placed does not exceed one year (10 U.S.C. 2410a and 41 U.S.C. 253l).
           Funds made available for a fiscal year may be obligated for the total amount of an
           action entered into under this authority.

Implementing 41 U.S.C. § 254c, FAR part 17.1 provides policies and procedures for the use of
multiyear contracting and authorizes the award of incrementally funded severable service
contracts for multiple performance periods crossing fiscal years for up to 5 program years. If the
awarding agency funds the contract incrementally, the FAR limits funding to 5 program years.
The Comptroller General has clarified the funding of multiyear contracts under 41 U.S.C.
§ 254c:

           To take advantage of FASA, the agency must either (1) obligate the full amount
           of the contract to the appropriation current at the time it enters into the contract, or
           (2) obligate the costs of the first year of the contract plus termination costs. Of
           course, if the agency elects to obligate only the costs of the individual years for
           each year of the contract, the agency needs to obligate the costs of each such year
           against the appropriation current for that year.4

Options

Agencies also fund severable service contracts by awarding a 1-year contract with renewable
options. The continuation of the contract beyond the first program year is at the sole discretion
of the agency. An option does not become an obligation until the agency exercises the option.
When the agency exercises the option, it reflects the bona fide need of that fiscal year and must
charge funds from that fiscal year appropriation. FAR part 17.2 prescribes the policies and
procedures for the use of options.

3
  The provisions cited as 41 U.S.C. §§ 253l and 254c in this report were revised and recodified as 41 U.S.C. §§ 3902
and 3903, respectively (P.L. No. 111-350, Jan. 4, 2011), which provide substantially similar requirements. We have
referenced the provisions as they were in effect at the time the contract was signed.
4
    As cited in GAO-06-382SP, Appropriations Law, Vol. II, p. 6-53.


                                                         2
Incremental Funding

Agencies also incrementally fund severable service contracts, including those with multiple
periods of performance, by identifying the period of performance and ceiling amount in the
“Estimated Cost and Fixed Fee” (Article B.2) provisions of the contract and through the routine
contract modification process. FAR subpart 32.7 describes the basic requirements for contract
funding and prescribes procedures for using limitation of cost or limitation of funds clauses.
Under these provisions, agencies obligate funds in increments of 1 year or less and define the
period of performance related to the amount obligated. When additional funds are required or
become available, agencies issue a contract modification that obligates the additional funds,
increases the period of performance covered, and increases the contract ceiling. An agency may
incrementally fund a contract only with appropriations that are available for the specific period
of performance or work.5

National Institute of Allergy and Infectious Diseases Contract Award

On September 30, 2003, NIAID awarded contract N01-AI-30068 (the Contract), totaling
$48.4 million, to PPD Development, LP, in Wilmington, North Carolina. NIAID estimated the
funds needed for the 5-year Contract as follows: $9.9 million of fiscal year 2003 funds for
program year 1, $9.3 million of fiscal year 2004 funds for program year 2, $9.5 million of fiscal
year 2005 funds for program year 3, $9.8 million of fiscal year 2006 funds for program year 4,
and $10.0 million of fiscal year 2007 funds for program year 5.6 On July 30, 2007, NIAID
modified the Contract to increase funding for program years 4 and 5 and extend the period of
performance to 7 years at an additional cost of $49.7 million. NIAID estimated the funds needed
as follows: $4.4 million for program year 4, $15.3 million for program year 5, $15.0 million for
program year 6, and $15.0 million for program year 7. The Contract requires the contractor to
provide clinical trial management support services to the Division of Microbiology and
Infectious Diseases. Although the Contract statement of work may contain some nonseverable
elements, we determined that the Contract is a severable service contract because it calls for
continuing, recurring tasks and does not provide for a single outcome at the Contract conclusion.

Departmental Review of National Institutes of Health Contracts

In 2008, HHS management formed an internal review group of program, contract, and financial
personnel called the “Tiger Team.” From November 2008 through February 2009, the Tiger
Team assessed 176 HHS contracts, including 21 NIH contracts. The Contract was 1 of the 21
NIH contracts assessed. For 17 of the 21 contracts, the Tiger Team identified instances in which
contract funding was not consistent with the current HHS Acquisition Regulation (HHSAR) or



5
 See also HHS Acquisition Policy Memorandum 2010-01, Guidance Regarding Funding of Contracts Exceeding
One Year of Performance (June 28, 2010), which was issued subsequent to the award of the Contract.
6
 NIAID estimated funds on a program year basis. “Program year” defines each of the five 12-month funding and
operating periods starting September 30 of each fiscal year, beginning on September 30, 2003, with the award of the
Contract. Extending fiscal year appropriations for a period of up to 12 months is permitted by 41 U.S.C. § 253l. We
used these funding estimates as a statement of NIAID’s bona fide need for each program year. Annual funding
amounts do not total $48.4 million because of rounding.


                                                        3
appropriations law.7 The Tiger Team report did not identify its concerns or quantify funding
errors by contract.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether NIAID funded the Contract in compliance with the
purpose, time, and amount requirements specified in appropriations statutes.

Scope

We reviewed all obligations and payments made under the Contract during fiscal years 2003
through 2008 (program year 1 through the first 9 months of program year 6). Although we
identified two Contract modifications that obligated fiscal year 2010 funds for program year 7,
we did not review or address the appropriateness of those obligations for this report. At the time
of our review, NIAID had not recorded expenditures for program year 7. We are awaiting a
decision from the Government Accountability Office regarding the appropriateness of similar
funding of another contract. That issue will be addressed in a report summarizing our reviews of
the 21 NIH contracts.

We did not review NIAID’s internal controls because our objective did not require such a
review. Procedures for awarding the Contract were outside the scope of this review. Therefore,
we performed this review as if NIAID had followed the appropriate award procedures.

We performed our fieldwork at NIAID in Bethesda, Maryland.

Methodology

To accomplish our objective, we:

          reviewed appropriations and acquisition laws and regulations and Contract requirements;

          reviewed the Tiger Team report;

          reviewed Contract file documentation, including the statement of work, to determine the
          nature of the products or services to be provided;

          analyzed the Contract using program years; and

          analyzed funding documents and payment invoices to determine what appropriations
          were obligated, recorded, and expended.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions

7
    Funding Multiple Year Contracts: Tiger Team Summary Report, July 29, 2009.


                                                        4
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                 FINDINGS AND RECOMMENDATIONS

NIAID funded the Contract in compliance with the purpose requirements of the appropriations
statutes. However, NIAID did not comply with the time and the amount requirements specified
in the statutes. NIAID violated the bona fide needs rule when it recorded expenditures against
the wrong fiscal years and obligated funds in excess of its bona fide need. NIAID violated the
Antideficiency Act when it obligated funds in advance of an appropriation and may have
violated the Antideficiency Act by obligating funds in excess of an appropriation. If NIAID
cannot resolve its bona fide needs rule violations by obligating sufficient appropriations from
appropriate fiscal years, it will further violate the Antideficiency Act.

FUNDING VIOLATIONS

Bona Fide Needs Rule Violations

Federal statutes limit the time for which an appropriation may be used. A fiscal year
appropriation may be obligated only to meet a legitimate, or bona fide, need arising in, or in
some cases arising prior to but continuing to exist in, the appropriation’s period of availability
(31 U.S.C. § 1502(a)). Bona fide needs may involve transactions that cover more than 1 fiscal
year, depending on the nature of the services involved.

Severable services are continuing and recurring in nature. A contract for severable services must
reflect a bona fide need identified for each program year.

Expenditures Recorded Against the Wrong Fiscal Years

NIAID did not adjust the estimated need for each program year or obligate appropriate fiscal
year funds to meet current bona fide needs. Rather, it used obligated funds on a first-in-first-out
basis to record expenditures as they were invoiced, regardless of the program year for which the
work was performed or the funds were obligated.

NIAID properly obligated the Contract estimate of $9.9 million for program year 1 using fiscal
year 2003 appropriations. NIAID’s actual expenditures for program year 1 were only
$2.5 million. However, NIAID failed to deobligate the unneeded $7.3 million ($9.9 million less
$2.5 million) of fiscal year 2003 funds.8 Instead, NIAID inappropriately used those funds for
program year 2 expenditures. For program years 2 through 6, NIAID inappropriately recorded
expenditures totaling $40.7 million against the wrong fiscal year funds: $7.3 million incurred for
program year 2 against fiscal year 2003 funds, $20.1 million incurred for program years 3 and 4
against fiscal year 2004 funds, $2.9 million incurred for program year 4 against fiscal year 2005
funds, and $10.4 million incurred for program years 3 and 6 against fiscal year 2007 funds. 9

8
    Amounts reflect the effect of rounding.
9
  NIAID paid a retroactive rate increase for program year 3 using funds available at the time the rate increase was
invoiced but should have used funds available for program year 3 for which the increase was paid.


                                                          5
Appendix A shows the actual expenditures correctly and incorrectly recorded against fiscal year
appropriations obligated for each program year.

NIAID may not use funds remaining from any program year for costs incurred in subsequent
program years. To remedy these errors, NIAID will need to reverse those expenditures that were
recorded against the wrong fiscal year funds and record them against fiscal year appropriations
obligated for the program year in which the expenditure occurred.

To resolve its bona fide needs violations, NIAID will have to obligate $15.9 million for program
year 3, $4.3 million for program year 4, and $10.3 million for program year 6 using appropriate
fiscal year funds.

Obligation in Excess of the Bona Fide Need

In fiscal year 2003, when it awarded the 5-year, $48.4 million severable service Contract, NIAID
estimated its cost for each program year. In fiscal year 2007, when NIAID added work and
extended the Contract to 7 program years, NIAID estimated its cost for the work beginning in
program year 4 and continuing for program years 5 and 6. However, NIAID obligated more than
its bona fide need in some program years:

        For program year 2, which began on September 30, 2004, NIAID estimated that it needed
        $9.3 million. However, it obligated a total of $23.8 million of fiscal year 2004
        appropriations: an initial increment of $9.3 million in June 2004 and three increments
        totaling $14.5 million in September 2004 that improperly funded the Contract for more
        than a 12-month period.10

        For program year 5, which began on September 30, 2007, NIAID estimated that it needed
        $25.3 million ($10.0 million for original work plus $15.3 million for new work);
        however, it obligated a total of $34.5 million of fiscal year 2007 appropriations: an initial
        increment of $12.4 million in July 2007 and a subsequent increment of $22.1 million in
        September 2007 that improperly funded the Contract for more than a 12-month period.

NIAID’s expenditures for each program year did not correspond to the amount estimated in the
Contract. However, NIAID did not modify its estimates or adjust its obligations to reflect its
actual bona fide need. Rather, it obligated amounts that did not correspond to the Contract
estimate for any year after program year 1 and in some years obligated less than its actual
expenditures. Table 1 compares the Contract estimates and the amounts obligated to the actual
expenditures for each program year as recorded at the time of our review.




10
  NIAID issued three Contract modifications in September 2004 obligating fiscal year 2004 funds: $8.5 million on
September 24 and $3.4 million and $2.6 million on September 30.


                                                       6
                   Table 1. Comparison of Obligated Amounts to Bona Fide Needs

          Program          Fiscal Year            Contract              Amount                Actual
            Year              Funds               Estimate              Obligated           Expenditures
               1               2003              $9,877,517             $9,877,517             $2,548,793
               2               2004               9,283,180             23,839,543             11,074,761
               3               2005               9,510,615               2,930,403            18,874,211
               4               2006               9,752,458             11,744,831             16,066,375
               4               2007a              4,362,868                                     2,863,260
                                                                        12,363,668b
                               2007a             15,344,497
               5                                                                               13,423,673c
                               2007               9,968,524             22,125,937
               6               2008a             15,030,153               3,388,782            10,268,902d
      a
       Contract modification 10 authorized additional funding to cover a funding shortfall for program year 4,
      anticipated growth for program year 5, and a 2-year extension to the Contract (program years 6 and 7).
      b
          Contract modification 10 did not identify separate obligations for program years 4 and 5.
      c
       Program year 5 expenditures included work identified in the original award and new work identified in
      Contract modification 10.
      d
       We estimated, on the basis of the $10.3 million incurred and recorded for the first 9 months, that total
      expenditures for program year 6 would be $13.7 million.

The FAR, parts 32.703-3 and 37.106, allows for the use of annual funds beyond the end of the
fiscal year only “if the period of the contract awarded, option exercised, or order placed does not
exceed one year.” Therefore, NIAID’s methods of obligating funds in excess of the bona fide
needs for program years 2 and 5, and extending the use of those funds after their period of
availability, violated the bona fide needs rule and statutory authority relating to availability of
fiscal year funds.

After NIAID corrects the expenditure-recording errors described earlier in this report, it will
need to remedy these bona fide needs rule violations by deobligating fiscal year appropriations
that were obligated in excess of the agency’s bona fide needs as follow: $12.8 million
($23.9 million less $11.1 million) of fiscal year 2004 funds for program year 2 and $18.2 million
($31.6 million11 less $13.4 million) of fiscal year 2007 funds for program year 5. Because fiscal
year 2004 appropriations are canceled, the $12.8 million must be deobligated and returned to the
Treasury.




11
  We estimate that NIAID expended $2.9 million of the $34.5 million ($12.4 million plus $22.1 million) of fiscal
year 2007 funds for work performed in program year 4, leaving $31.6 million ($34.5 million less $2.9 million) for
program year 5.


                                                           7
Antideficiency Act Violations

Congress determines the amount of funding available to an agency by enacting appropriations to
cover programs, projects, purchases, and services needed by the agency during the period for
which the funds are made available. The Antideficiency Act prohibits the agency from
obligating or expending any amount in advance of or in excess of an appropriation unless
specifically authorized by law (31 U.S.C. § 1341(a)(1)). The Antideficiency Act requires
agencies to report violations to the President and to Congress, with a copy to the Comptroller
General (31 U.S.C. § 1351). OMB Circular A-11, part 4, § 145, prescribes the methodology for
this reporting.

Pursuant to 31 U.S.C. §§ 1551-1553, the statues governing the closing of accounts,12 after fiscal
year appropriations expire they remain available to record, adjust, and liquidate obligations
properly chargeable to the appropriation account for up to 5 years. After 5 years, the
appropriation account is closed and the balance is canceled.

Pursuant to 31 U.S.C. § 1553(b), if fiscal year funds are no longer available because an account
has been closed, an agency may charge the obligation to the current fiscal year appropriation
account available for the same purpose. The amount charged to the current fiscal year
appropriation account may not exceed the lesser of 1 percent of the current appropriation or the
unexpended balance of the closed appropriation.

Pursuant to 31 U.S.C. § 1554, after the close of each fiscal year, the head of each agency must
submit to the President and the Secretary of the Treasury a report on adjustments made to
appropriation accounts during the year, including any adjustments to obligations pursuant to
section 1553.

Obligations in Advance of an Appropriation

NIAID’s obligation of fiscal year appropriations for a period that exceeded 12 months
constituted an obligation of funds in advance of an appropriation and thus violated the
Antideficiency Act. NIAID obligated fiscal year appropriations to fund the Contract using the
initial award and 13 modifications. Table 2 shows the number of months for each funding
modification issued by NIAID.




12
  Each agency has an account, maintained by the Department of the Treasury, that tracks the amount of funds
available for use. That account is credited with funds appropriated in the agency’s budget and reduced by
expenditures made by the agency to perform the tasks for which the credit was given.


                                                        8
 Table 2. National Institute of Allergy and Infectious Diseases Contract Funding Periods

          Funding          Effective            Funded-                               Amount
           Action            Date             Through Date           Months           Obligated
          Award             09/30/03             09/29/04               12.0          $9,877,517
             1              06/25/04             09/29/05               15.0            9,283,180
             2              09/24/04             08/29/06               23.0            8,559,554
             3              09/30/04             12/29/06               25.0            3,367,644
             4              09/30/04             03/29/07               30.0            2,629,165
             5              09/29/05             07/29/07               22.0            2,930,403
             6              06/13/06             07/29/07               13.5              300,000
             7              06/30/06             08/29/07               14.0            1,331,197
             8              09/29/06             09/29/08               24.0          10,113,634
            10              07/30/07             03/30/08                 8.0         12,363,668
            11              09/29/07             07/29/09               22.0          22,125,937
            13              09/29/08             12/29/09               15.0            3,388,782
            15              03/16/10a            05/31/10                 2.5           5,400,000
            17              07/20/10a            05/31/10                               4,100,000
      a
       NIAID did not issue a funding modification for the period December 30, 2009, through March 15,
      2010. In addition, NIAID did not issue a funding modification for the period June 1, 2010, through
      July 19, 2010, even though the effective date for modification 17 came after the funded-through
      date.

For 10 of the 13 funding modifications, NIAID obligated funds for periods that exceeded
12 months. For all modifications, except modifications 15 and 17, the funded period overlapped
the previous funding period. Using fiscal year appropriations for a period that exceeded
12 months constituted an obligation of funds in advance of an appropriation and thus violated the
Antideficiency Act.

Obligations in Excess of an Appropriation

NIAID continued to use fiscal year funds remaining from each program year to fund the Contract
after the expiration of these funds’ availability. As shown in Table 1, for all years after program
year 1, NIAID did not properly fund its estimated bona fide needs. In addition, NIAID did not
fund its actual expenditures for program years 3, 4, and 6, resulting in potential Antideficiency
Act violations. Table 3 identifies the estimated over/under obligation amounts using the amounts
actually obligated and expended in each program year as recorded at the time of our review.




                                                       9
                   Table 3. Estimated Over/(Under) Obligation Amounts

       Program      Fiscal Year       Amount              Actual           Over/(Under)
         Year          Funds         Obligated         Expenditures         Obligated
          1            2003          $9,877,517         $2,548,793          $7,328,724
            2          2004          23,839,543          11,074,761         12,764,782
            3          2005            2,930,403         18,874,211        (15,943,808)
                       2006          11,744,831          16,066,375         (4,321,544)
            4
                       2007                               2,863,260
                                     34,489,605                             18,202,672
            5          2007                              13,423,673
            6          2008            3,388,782         10,268,902         (6,880,120)

At the time of our review, NIAID had incurred and recorded expenditures totaling $10.3 million
for only the first 9 months of program year 6. We estimated that total expenditures would be
$13.7 million, leaving program year 6 underobligated by approximately $10.3 million
($13.7 million less $3.4 million).

NIAID should record total obligations and expenditures for each program year against the
appropriate fiscal year appropriations. This includes obligating $15.9 million for program year 3
and $4.3 million for program year 4. Fiscal year 2005 and fiscal year 2006 funds are no longer
available to record the needed obligations. However, NIAID may be able to fund the deficiency
by using $20.2 million ($15.9 million plus $4.3 million) of current fiscal year appropriations
provided the conditions of 31 U.S.C. §§ 1553 and 1554 are met. If NIAID does not have
$20.2 million of current fiscal year appropriations available or the amount exceeds the lesser of
1 percent of the current appropriation or the unexpended balance of the closed appropriations, it
will violate the Antideficiency Act.

In addition, NIAID must obligate $10.3 million ($6.9 million for the first 9 months plus an
estimated $3.4 million for the last 3 months) of fiscal year 2008 funds for program year 6. If
NIAID does not have funds available to make the needed adjustments, it will violate the
Antideficiency Act for those years.

CAUSES OF FUNDING VIOLATIONS

Generally, the Tiger Team report attributed funding violations to:

       widespread misunderstanding of appropriations laws because of conflicting HHSAR
       guidance over the past 25 years;

       the use of incremental funding in ways that were not consistent with the current HHSAR
       and appropriations law; and

       the need for additional training and a broader understanding of appropriations law among
       acquisition, budget, and program staff.


                                                10
The Tiger Team did not identify the specific reasons for funding violations for each contract
reviewed. HHS management corrected the conflicting guidance in HHSAR 332.702(a) and
reissued the HHSAR on December 20, 2006.

RECOMMENDATIONS13

We recommend that NIAID:

           record expenditures for each program year against the appropriate fiscal year
           appropriations by

                o reversing $7.3 million of program year 2 expenditures improperly recorded
                  against fiscal year 2003 obligations and recording $7.3 million against fiscal year
                  2004 obligations,

                o reversing $18.9 million of program year 3 expenditures improperly recorded:
                  $18.7 million against fiscal year 2004 obligations and $0.2 million against fiscal
                  year 2007 obligations and recording $2.9 million against fiscal year 2005
                  obligations (made available below) and $15.9 million against current fiscal year
                  funds because additional fiscal year 2005 funds are no longer available,14

                o reversing $1.4 million of program year 4 expenditures improperly recorded
                  against fiscal year 2004 obligations and $2.9 million of program year 4
                  expenditures improperly recorded against fiscal year 2005 obligations and
                  recording $4.3 million against current fiscal year funds because additional fiscal
                  year 2006 funds are no longer available, and

                o reversing $10.3 million in expenditures for the first 9 months of program year 6
                  improperly recorded against fiscal year 2007 obligations and recording
                  approximately $13.7 million (estimated expenditures for program year 6) against
                  fiscal year 2008 funds;

           deobligate $7.3 million of fiscal year 2003 funds and return those canceled funds to the
           Treasury;

           resolve its bona fide needs violations by

               o deobligating $12.8 million of fiscal year 2004 funds and returning those canceled
                 funds to the Treasury,

               o deobligating $18.2 million of fiscal year 2007 funds,


13
  The obligation and deobligation amounts included in the recommendations represent only the difference between
the amounts actually obligated and the total expenditures for each program year at the time of our review because
the costs estimated in the Contract significantly differed from the amounts actually needed for each program year as
evidenced by expenditures.
14
     Numbers do not add up because of rounding.


                                                         11
          o obligating $10.3 million (estimate) of fiscal year 2008 funds needed to cover
            actual and estimated expenditures incurred in program year 6, and

          o obligating $20.2 million of current fiscal year funds because $15.9 million of
            fiscal year 2005 funds and $4.3 million of fiscal year 2006 funds are no longer
            available;

       report an Antideficiency Act violation for obligating fiscal year funds in advance of an
       appropriation for all program years reviewed, if not previously reported;

       report an Antideficiency Act violation if $10.3 million (estimated) of fiscal year 2008
       funds, sufficient fiscal year 2009 funds, and $20.2 million of current fiscal year funds are
       unavailable, if not previously reported; and

       report, in accordance with 31 U.S.C. § 1554, any adjustment to the Contract using current
       fiscal year appropriations.

NATIONAL INSTITUTES OF HEALTH COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, NIH concurred with the findings and agreed that the
Contract is severable and should have been funded with the appropriation that was current when
the services were performed. NIH said that HHS reported the Antideficiency Act violation as
required by 31 U.S.C. § 1351.

NIH stated that, effective May 1, 2010, the Contract was modified to ensure that it was funded
appropriately by recording expenditures against fiscal year 2010. NIH did not concur with our
recommendations to correct the improper funding for the first 6 program years of the Contract.
NIH stated that the Contract had expired and was being closed. NIH further stated that, in
accordance with the HHS corrective action plan, “payments for contract performance conducted
before May 1, 2010, remain recorded against appropriations initially charged.” Until NIH makes
these adjustments, HHS cannot report the appropriate amount of the Antideficiency Act
violation. Therefore, we continue to recommend that NIH record the appropriate Contract
obligations and expenditures against the correct fiscal year funds.

NIH’s comments are included in their entirety as Appendix B.




                                                12
APPENDIXES
                     APPENDIX A: TOTAL FISCAL YEAR OBLIGATIONS AND EXPENDITURES INCURRED AND RECORDED
                                        FOR CONTRACT N01-AI-30068 FOR EACH PROGRAM YEAR


                                                                                                                                                               Expenditures
 Program
                     FY 2003a          FY 2004            FY 2005              FY 2006        FY 2007          FY 2008           FY 2009           FY 2010      Incurred by
   Year
                                                                                                                                                               Program Year
        1               2,548,793                                                                                                                                $2,548,793

        2               7,328,724      $3,746,037                                                                                                               $11,074,761

        3                              18,702,365                   $0                          $171,846                                                        $18,874,211

        4                               1,391,141          2,930,403      $11,744,831          2,863,260                                                        $18,929,635

        5                                                                                     13,423,673                                                        $13,423,673

        6                                                                                     10,268,902b                $0                                     $10,268,902

        7                                                                                                                                  $0                    Unknown
Unexpended
                                                                                               7,761,924        3,388,782                         $9,500,000    $20,650,706
Obligations
   Total
                    $9,877,517       $23,839,543         $2,930,403       $11,744,831       $34,489,605        $3,388,782                  $0     $9,500,000    $95,770,681
Obligations
 a
     FY = Fiscal Year
 b
     Represents expenditures incurred for approximately 9 months (September 30, 2008, through June 30, 2009).

     Legend:
         Expenditures incurred and correctly recorded against the correct fiscal year obligations.
         Expenditures incurred in a program year incorrectly recorded against fiscal year obligations of other program years.
         Estimated expenditures incurred and recorded against the correct fiscal year obligations for which invoices do not identify original and new work.
         Fiscal year obligations not yet expended at the time of our review.
                                                                                                               Page 10f2

                      APPENDIX B: NATIONAL INSTITUTES OF HEALTH COMMENTS 




~/'~~"""           DEPARTMENT OF HEALTH &. HUMAN SERVICES                                  Public Health Service

~.~~
 "a{:
"I-'l·••
                                                                                           National Institutes of Health
                                                                                           Bethesda, Maryland 20892




            JUl .,42012



           TO: 	        Daniel R. Levinson 

                        Inspector General, HHS 


           FROM: 	      Director, National Institutes of Health

           SUBJECT: 	 NIH Response to Draft Office of Inspector General Report, Appropriations Funding
                      for the National Institute ofAllergy and Infectious Diseases Contract NOI-AI-30068
                       With PPD Development, LP (A-03-10-03116)


           Attached is the National Institutes of Health's response to the draft Office ofInspector General's
           report entitled, Appropriations Fundingfor the National Institute ofAllergy and Infectious
           Diseases Contract NOI-AI-30068 With PPD Development, LP (A-03-10-03116).

           Should you have questions or concerns regarding our comments, please contact Meredith Stein
           in the Office of Management Assessment at 301-402-8482.




                                                         Francis S. Collins, M.D., Ph.D.

           Attachment
                                                                                                   Page 2 of2

GENERAL COMMENTS ON THE DEPARTMENT OF HEALTH AND HUMAN
SERVICES roHS) OFFICE OF INSPECTOR GENERAL DRAFT REPORT ENTITLED,
APPROPRIATIONS FUNDING FOR NATIONAL INSTITUTE OF ALLERGY AND
INFECTIOUS DISEASES CONTRACT NOI-AI-30068 WITH PPD DEVELOPMENT, LP
(A-03-10-03116)


The National Institutes of Health (NIH) appreciates the review conducted by the Office oflnspector
General (OIG) and the opportunity to provide clarifications on this draft report. We respectfully submit
the following comments:

The NIH concurs that National Institute of Allergy and Infectious Diseases (NIAID) Contract NO I-AI­
30068 was for severable services and that under Federal appropriations law, the appropriation that was
current when the services were performed should have been charged. Accordingly, NIH agrees that a
violation of the Antideficiency Act has occurred with respect to this contract.

On July 14,2011, the Secretary of Health and Human Services reported this and other Department-wide
violations of the Antideficiency Act in accordance with section 1351 of Title 31, United States Code. As
described in the Secretary's report, the Department is working to ensure that new obligations are funded
in full compliance with appropriations law, regulations, and Department policy. The report also noted
that "if additional funds are required to be expended to fulfill an obligation that was already recorded to
an improper account, the Department wi II continue to make payment from the appropriation initially
charged because at this time our judgment is that doing otherwise would have serious programmatic
repercussions." The Secretary's report summarized the corrective actions the Department has and will
continue to take to address the violations, including: mandating training in appropriations law for all staff
involved in the acquisition process; revamping existing contract funding guidance; revising HHS
Acquisition Regulations (HHSAR) provisions regarding contract funding; and issuing a detailed and
extensive Acquisition Policy Memorandum explaining how the new HHSAR guidance should be applied.

At the agency level, NIH has mirrored the Department's risk mitigation approach by implementing the
Department's expanded acquisition guidance; arranging for and conducting in-house appropriations law
instruction; and providing ongoing assistance to the acquisition, budget, program, and finance
communities to ensure business practices align with appropriations law and HHS policy.

In accordance with HHS guidance, NIAID Contract NOI-AI-30068 was modified effective May 1,2010,
to ensure that the remaining contract performance was funded appropriately and in accordance with all
applicable laws and regulations. The contract expired on September 29, 2010, and is in the process of
being administratively closed. Payment for contract performance conducted after May 1,2010, was
recorded against the proper fiscal year appropriation (FY 20 I0). In accordance with the corrective action
plan described in the Secretary's report, payments for contract performance conducted before May I,
2010, remain recorded against the appropriations initially charged.
